No. 20-5603

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JAY EARL HAYNES,
Petitioner-Appellant,
v.
BERT BOYD, Warden,
Respondent-Appellee.

)
)
)
)
)
)
)
)
)

Oct 22, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUHRHEINRICH, Circuit Judge.

Jay Earl Haynes, a Tennessee prisoner proceeding pro se, appeals a district court judgment
denying his petition for a writ of habeas corpus filed pursuant to 28 U.S.C. § 2254. Haynes’s
timely notice of appeal is construed as a request for a certificate of appealability (COA). See
28 U.S.C. § 2253(c); Fed. R. App. P. 22(b). He also requests leave to proceed in forma pauperis.
In 2012, a Tennessee jury convicted Haynes of two counts of rape in violation of Tennessee
Code Annotated § 39-13-503(a)(3), for the rape of two mentally-incapacitated twin brothers who
were nineteen years old at the time of the incident. State v. Haynes, No. W2012-01917-CCAR3CD, 2013 WL 3807992 (Term. Crim. App. July 17, 2013). Haynes was sentenced to twenty
years in prison for each conviction, to be served consecutively. The Tennessee Court of Criminal
Appeals affirmed Haynes’s convictions, id. at *5, and the Tennessee Supreme Court denied
permission to appeal.
Haynes filed a state petition for post-conviction relief, arguing that he received ineffective
assistance of counsel because counsel failed to challenge the constitutionality of the Tennessee
rape statute under which he was convicted. According to Haynes, counsel should have argued that
the statute was in derogation of the Supreme Court’s holding in Lawrence v. Texas, 539 U.S. 558
(2003), that struck down a Texas statute making it a crime for two adult persons of the same sex

cOdfc-OS .on
sooratf i4jli migu oi fanuoa ioi IcoisoirttryxJ svtd hfoo*;/ li .aioVrariT k\ ".badael

&b

awm-waA wb»t) bnotUtfti&re'Cw aw ’ft/tsu sutu'arlf .toaamnoa «x// yiivitta bwx:-». ^ro
tidl 'to ootoapi I'nmv i^htqib aril cjsdab )c'n bU.;ow ^zhut aitJc^oscsH
iClf»I>

Jt*\'f wZ korfodtt-wM*
i*

rMt+ sdi lv xiHinairu>il«no3 odt (4 v*it&ilub i ’mt&ft basis'! Jtuo'j Janteib an f

gciYlqc^ atohd rrcoa aicfc' «ri f'wfcaf.rai-idrl vw-ftojiu/ja »whn

/. osiMab YUr,.u!ii>oo7q

a&tiurKMaiq ilsl fviivpvt aoi^aiixSi .(d)WS7 $ .0,55‘.U dS bfc££ $ tetau *bd;n £*iso% d Lrjbaft toI
auftAWN, .v > /w£. .cvsxnq V/^i -/a i stcifcq^Vslate *-ril In bonoi statipiKp ~no dirndl Taisia c V- •*
on nso bf& mifib s jargtto o’ tlfol isn^hq * 11 J(ttQ£ ,*D :’&*> *'!<> ,dOc bM £0T AtafotiU •/
taw&fr&i ad i*rt Hi* •' bru IwlJuVIob vlforcoaocrsq t. muh >uU ,iujo3 &&k ni m»b aril a?ri»* wgno‘
-U ’/j?. Jinstob 4ft? ;.cd &&u/(viq b<u tf&i :v

. :iornsb tsooilsteq orfJ mlirj sttjao

^d

iv. Iftaqqfi Josnib no suntfa *iute aril of ggrttiizcb Icboi3u*Uem*3 dri loas^iq ol tofiitl rsmpH '
ttyra oidfeqfra notomioteoq arfT .nyr; fchj edl it’iv? balft noiliiaq noitoivncoMvj «if rl
.li ?.^nbb3 oi baiztbdb flaw terfl uwi Mil no him ./cwcri^-is oriJ ba^iaw br;I ad isdi Imfcimyab

gvlferffciri Ifajainsfob ylfebiabiq <uid>
UsW

.aaapfiUmuaira nisnoa

.1* t6 .ECSOdV JW bti'Z 4^v<»V\

liii^bateq ^(u'xa-ol

>.

sludlenoo ’{cn* b' nooa to

noiiar^no >-jeocj ni ^ono x-frioft -• fu-^v/oH VCIOS^tiD dlO) 3W .CCd bf. ^ OQV
AA

■tUz&lab jo} ^iwd**'aliilibooj Jozi-xo >*:nuzjb

hr

v

.^gaibaaacnq aisMaqqa

yJt. ,?«ntiin U.'usl^pcnt] itrbi fcq^6.«c^-irJrtbteib.?40 JsrU bisd^b ion biuotf/ «j^rtot aidiito^^I

tc.?.rjpr; Jbuff.

•* •

srmcrt m topaoiq ol noilom ad; bxn JIHIVISCf id AGO s iol noi^diqqs a^li ^lgnibiooaA
kxkti
■ •»

../

T«»KjOaHT dO rASQttQ YG Q3MIJP13

diaO ,lnuH M d.i^ 'aG
.' •. i

v.
■i

.;

-f
A

UlTMHd ^ ehaq^aq
M i

Page 1 of 9

Haynes v. Boyd | WestlawNext

WESTLAW
Haynes v. Boyd
United Stales District Court, W.D. Tennessee, Eastern Division. s April 24,2020 ; Slip Copy i 2020 WL1977122 (Apprvx. 9 pages)

2020 WL 1977122
Only the Westlaw citation is currently available.
United States District Court, W.D. Tennessee, Eastern Division.

Jay Earl HAYNES, Petitioner,
v.
Bert C. BOYD, Respondent.
No. i:i6-cv-oi258-STA-jay
Signed 04/24/2020

Attorneys and Law Firms
Jay Earl Haynes, Mountain City, TN, pro se.
Richard Davison Douglas, Office of the TN Attorney General & Reporter, Nashville,
TN, for Respondent.
ORDER DIRECTING CLERK TO MODIFY RESPONDENT, DENYING § 2254
PETITION, DENYING CERTIFICATE OF APPEALABILITY, AND DENYING
LEAVE TO APPEAL IN FORMA PAUPERIS
S. THOMAS ANDERSON, CHIEF UNITED STATES DISTRICT JUDGE
*1 Petitioner Jay Earl Haynes, a Tennessee state prisoner, has filed a pro se
habeas corpus petition (the "Petition"), pursuant to 28 U.S.C. § 2254. (ECF No. 1.)
For the following reasons, the Petition is DENIED.
BACKGROUND
In August 2009, the Dyer County, Tennessee, grand jury indicted Haynes on two
counts of rape involving the intellectually disabled adult twin grandsons of his
girlfriend, in violation of Tenn. Code. Ann. § 39-13-503. (ECF No. 11-1 at 5.) The
Tennessee statute defines rape as "the unlawful sexual penetration of a victim by
the defendant or the defendant by a victim" when "[t]he defendant knows or has
reason to know that the victim is mentally defective, mentally incapacitated or
physically helpless[.]" Tenn. Code Ann. § 39-13-503(a)(3).
At Haynes’s jury trial, it was established that the victims, who were nineteen years
old at the time of the rapes, "lived with their mother and required constant adult
supervision because they had the mental development of a child." State v. Haynes,
No. W2012-01917-CCA-R3-CD, 2013 WL 3807992, at *1 (Tenn. Crim. App. July
17, 2013) (hereinafter "Haynes I"), perm, appeal denied (Tenn. Nov. 13, 2013).
The victims' grandmother testified that, on June 26, 2009, to June 27, 2009, the
twins stayed overnight at her house, which she shared with the Defendant. (ECF
No. 11-4 at 79, 81-82.) In the early morning hours of June 27, "she received a call
that she needed to be at work at 4:00 a.m." Haynes I, 2013 WL 3807992, at *1.
"She left for work while [Haynes] and the victims were sleeping." Id.

https://nextcorrectional.westlaw.com/pocument/IQc9d0bdp88881 Iea90c4ecc2elf3ae4a/...

12/28/2020

Haynes v. Boyd | WestlawNext
♦

Page 2 of 9

The victims testified that, while their grandmother was at work, Haynes anally
raped each of them twice. Id. He "told the victims not to tell what had happened."
Id. When they were returned home later that day, they "told [their mother] what
had occurred while at their grandmother's house." Id. "As a result, their mother
called their father and the police." Id. The victims were subsequently examined at
the hospital, "where nurses ... found that both victims showed signs of anal
redness and slight injury to the anus." Id. The victims’ father "decided to confront"
Haynes and observed him walking out of the grandmother’s house and
approaching a "burn barrel." Id. "Before [Haynes] could put [bed] sheets in the
barrel, the victims' father ran over and knocked the barrel over to put out the fire."
Id.
Forensic and clinical psychiatrist Dr. Fred Steinberg testified regarding his
evaluations of the victims and the Defendant. (ECF No. 11-3 at 49-128.) He
reported "that the victims were both mildly mentally retarded[,] ... had a low IQ,"
and "functioned at a five-year-old level with regard to their development, including
language development, self-direction, and socialization." Haynes I, 2013 WL
3807992, at *3. He opined "that at the time of the rapes, the victims did not have
the ability to consent to sexual intercourse." Id. Dr. Steinberg related that the
Defendant was mildly mentally retarded, had "a higher level of executive
functioning" than the victims, and could understand and "plan ... sexual activity[.]"
(ECF No. 11-3 at 119-23.)
*2 The jury convicted Haynes on both counts of rape. Haynes I, 2013 WL
3807992, at *2. The circuit court sentenced him to two consecutive twenty-year
terms of imprisonment. Id. The Defendant took an unsuccessful direct appeal. Id.
at *1, 5. He filed a timely pro se petition for state post-conviction relief (ECF No.
11-13 at 9-19), which appointed counsel amended (id. at 24-28). The post­
conviction court held an evidentiary hearing and denied relief. (Id. at 31-32.) The
Tennessee Court of Criminal Appeals (the "TCCA") affirmed the decision and the
Tennessee Supreme Court denied permission to appeal. See Haynes v. State, No.
W2015-00919-CCA-R3-PC, 2016 WL 750233, at *1 (Tenn. Crim. App. Feb. 26,
2016) (hereinafter"Haynes II"), perm, appeal denied (Tenn. June 24, 2016).
DISCUSSION
In September 2016, Haynes filed his Petition, asserting that counsel provided
ineffective assistance ("Claim 1"), and a claim challenging the constitutionality of
the state statute under which he was convicted ("Claim 2"). (ECF No. 1 at 5-15.)
Respondent Bert C. Boyd1 filed a Motion to Dismiss and most of the state court
record. (ECF Nos. 11, 12.). He argued that Haynes submitted the Petition to prison
authorities for mailing two days beyond the expiration of the limitations period.
(ECF No. 12 at 5-6.) The Court found that the Petition was timely and ordered
Respondent to answer the Petition. (ECF No. 18.) Respondent filed his Answer on
May 18, 2018, arguing that Claim 1 is without merit and Claim 2 is procedurally
defaulted. (ECF No. 23 at 1-2.) Haynes did not file a reply, although allowed to do
so. (See ECF No. 18 at 5.)
I. Legal Standards

https://nextcorrectional.westlaw.com/Document/I0c9d0bd0888811ea90c4ecc2elf3ae4a/...

12/28/2020

4
?

;

)

i*.

r.

;
:

v-

I
i

■;

:•

r]■

Hi

■••• 7

;

*1.

?

-i

:

5

;

/• < *

r

\ *
i

:•

r*>

<•
v

i

,r

¥

**
r

l< .

A

;

Haynes v. Boyd | WestlawNext

Page 3 of 9

A. Federal Habeas Review
The statutory authority for federal courts to issue habeas corpus relief for persons
in state custody is provided by § 2254, as amended by the Antiterrorisim and
Effective Death Penalty Act ("AEDPA"). See 28 U.S.C. § 2254. Under § 2254,
habeas relief is available only if the prisoner is "in custody in violation of the
Constitution or laws or treaties of the United States." 28 U.S.C. § 2254(a).
The availability of federal habeas relief is further restricted where the petitioner's
claim was "adjudicated on the merits" in the state courts. 28 U.S.C. § 2254(d). In
that circumstance, the federal court may not grant relief unless the state-court
decision " 'was contrary to' federal law then clearly established in the holdings of
[the Supreme] Court; or that it 'involved an unreasonable application of' such law;
or that it 'was based on an unreasonable determination of the facts' in light of the
record before the state court." Harrington v. Richter, 562 U.S. 86, 100 (2011)
(quoting 28 U.S.C. § 2254(d)(l)-(2)) (citations omitted).
A state court's decision is contrary to federal law when it "arrives at a conclusion
opposite to that reached by [the Supreme] Court on a question of law," or when
"the state court confronts facts that are materially indistinguishable from a
relevant Supreme Court precedent and arrives at" an "opposite" result. Williams v.
Taylor, 529 U.S. 362, 405 (2000). An unreasonable application of federal law
occurs when the state court, having invoked the correct governing legal principle,
"junreasonably applies the ... [principle] to the facts of a prisoner's case." Id. at
409.
For purposes of § 2254(d)(2), a state court's "factual determination is not
unreasonable merely because the federal habeas court would have reached a
different conclusion in the first instance." Wood v. Allen, 558 U.S. 290, 301 (2010).
The Sixth Circuit construes § 2254(d)(2) in tandem with § 2254(e)(1) to require a
i
presumption that the state court's factual determination is correct in the absence
of clear and convincing evidence to the contrary. Ayers v. Hudson, 623 F.3d 301,
308 (6th Cir. 2010) (citing Miller-El v. Cockrell, 537 U.S. 322, 340 (2003)). A state
court's factual findings are therefore "only unreasonable where they are 'rebutted
by clear and convincing evidence and do not have support in the record/ " Moritz
y. Woods, 692 F. App'x 249, 254 (6th Cir. 2017) (quoting Pouncy v. Palmer, 846
F.3d 144, 158 (6th Cir. 2017)) (internal quotation marks omitted).
L ?3 Before a federal court will review the merits of a claim brought under § 2254,
the petitioner must have "exhausted the remedies available in the courts of the
State." 28 U.S.C. § 2254(b)(1)(A). To be properly exhausted, a claim must be
"fairly presented" through "one complete round of the State's established appellate
review process." O'Sullivan v. Boerckel, 526 U.S. 838, 845, 848 (1999).
B. Ineffective Assistance of Counsel
A claim that an attorney's ineffective assistance has deprived a criminal defendant
of his Sixth Amendment right to counsel is controlled by the standards stated in
Strickland v. Washington, 466 U.S. 668 (1984). To succeed on such a claim, a
petitioner must demonstrate two elements: (1) "that counsel's performance was
deficient"; and (2) "that the deficient performance prejudiced the defense." Id. at
687. "The benchmark forjudging any claim of ineffectiveness must be whether

https://nextcorrectional.westlaw.com/Document/I0c9d0bd0888811ea90c4ecc2elf3ae4a/...

12/28/2020

Haynes v. Boyd | WestlawNext
c\

Page 4 of 9

counsel’s conduct so undermined the proper functioning of the adversarial process
that the trial cannot be relied on as having produced a just result." Id. at 686.
To establish deficient performance, a petitioner "must show that counsel's
representation fell below an objective standard of reasonableness." Id. at 688. A
court considering a claim of ineffective assistance must apply "a strong
presumption" that the attorney's representation was "within the wide range of
reasonable professional assistance; that is, the defendant must overcome the
presumption that, under the circumstances, the challenged action might be
considered sound trial strategy." Id. at 689 (internal quotation marks and citation
omitted).
TJo demonstrate prejudice, a petitioner must establish "a reasonable probability
that, but for counsel's unprofessional errors, the result of the proceeding would
hlave been different." Id. at 694. "A reasonable probability is a probability sufficient
to undermine confidence in the outcome." Id. "It is not enough 'to show that the
errors had some conceivable effect on the outcome of the proceeding/ " Harrington
v. Richter, 562 U.S. 86, 104 (2011) (quoting Strickland, 466 U.S. at 693)
(citations omitted). Instead, "[counsel's errors must be 'so serious as to deprive
the defendant of a fair trial, a trial whose result is reliable/ " Id. (quoting
Strickland, 466 U.S. at 687).
The deference to be accorded a state-court decision under 28 U.S.C. § 2254(d) is
magnified when a federal court reviews an ineffective assistance claim: "Federal
habeas courts must guard against the danger of equating unreasonableness under
Strickland with unreasonableness under § 2254(d). When § 2254(d) applies, the
question is not whether counsel's actions were reasonable. The question is whether
there is any reasonable argument that counsel satisfied Strickland's deferential
standard." Id. at 105.

11. Claim 1
Petitioner asserts that "counsel was ineffective for failing to challenge the
constitutionality of Tennessee Code Annotated § 39-13-503(a)(3), as applied in
[his criminal] case." (ECF No. 1 at 5 (altered for irregular capitalization).) He
complains that, because his criminal "case was tried in 2012, more than nine (9)
years after the Supreme Court's decision in Lawrence v. Texas, ... there was no
legitimate reason for counsel to not have discovered this case had he done the
proper legal research." {Id. at 6.) According to Haynes, "[h]ad counsel properly
investigated the legal issues of this case he ... would have found that [the rape
statute], as applied in [his] case, infringed upon [his] fundamental right to privacy
by criminalizing consensual sex between mentally handicapped adult persons."
{Id.) Respondent maintains that the TCCA's determination that counsel did not
provide ineffective assistance regarding a Lawrence argument was not contrary to
Strickland, based on unreasonable factual determinations, or the result of an
unreasonable application of Strickland's standards to the facts. (ECF No. 23 at 612.) A review of counsel's brief on direct appeal and the TCCA's post-conviction
ruling shows that Respondent's argument is well-taken.
r

*4 In Lawrence, "the Supreme Court held that state laws against sodomy violate
:he Due Process Clause[.]" Ondo v. City of Cleveland, 795 F.3d 597, 608-09 (6th

https://nextcorrectional.westlaw.com/Document/I0c9d0bd0888811ea90c4ecc2elf3ae4a/...

12/28/2020
\

i

Haynes v. Boyd | WestlawNext

Page 5 of 9

Gir. 2015) (citing Lawrence, 539 U.S. at 574-78). The Lawrence Court emphasized
that its decision did not reach all forms of sexual activity. See Lawrence, 539 U.S.
at 578. Rather, the ruling was limited to cases "involving] two adults who, with full
and mutual consent from each other, engage[ ] in sexual practices common to a
homosexual lifestyle." Id.
i

On direct appeal, Haynes's counsel used Lawrence's ruling to challenge the
sufficiency of the evidence to convict the defendant of rape.2 He first posited that,
unless a consent element were read into the statute, the Tennessee rape law
forbidding sexual activity with a person with mental deficiencies was facially
unconstitutional under Lawrence because it proscribes the consensual sexual
activity of adults with such deficiencies. (ECF No. 11-8 at 14-15.) Specifically, he
maintained that
[d]espite the fact that the statute in question, T.C.A. 39-13-503[a](3),
mandates no element of consent, ... the real issue in this cause is
whether the alleged victims had the mental capacity to consent to sex
and if not, whether the defendant knew or had reason to know whether
their mental abilities rendered them unable to consent to sex. Logically,
this has to be the question because a literal reading of the statute
charged, alleges no crime but rather simply proscribes individuals of
lesser intelligence from engaging in sex. It is axiomatic that all people
have a constitutional right to have sex and/or procreate if they so
choose. See Garner v. Texas, 539 U.S. 558 (2003) (In its entirety). As
such, the issue of consent must impliedly be an element of the charge
for which defendant was convicted.

Id.)
Counsel then argued that "no reasonable trier of fact could have concluded that
[the victims] lacked the capacity to consent to sex. «3 (Id. at 15.) He further
asserted that the evidence was insufficient to show "that the defendant could have
i
known or had reason to know that any alleged defect prohibited [the victims] from
consenting to engage in sex." (Id. at 20.)
In his state post-conviction petition, Haynes asserted that counsel provided
ineffective assistance by failing to present an as-applied challenge under Lawrence
to the Tennessee rape statute. (ECF No. 11-13 at 10-18.) He insisted that
Lawrence protected his right as a mentally disabled person from engaging in
consensual sex with other mentally disabled adults. (Id. at 12.) At the post­
conviction hearing, "[c]ounsel testified that he addressed whether the rape statute
was facially unconstitutional, not as applied to the petitioner." Haynes II, 2016 WL
750233, at *2. He explained "that he dealt with the statute's application to the
petitioner 'in terms of... the sufficiency of the evidence/ " Id. He recalled "that his
strategy was to prove that even if the victims were mentally disabled, the State
failed to prove that the petitioner knew that they were due to his own mental
disability." Id. at *3. Counsel "summarized that his two issues at trial were whether

https://nextcorrectional.westlaw.com/Document/I0c9d0bd0888811ea90c4ecc2elf3ae4a/...

12/28/2020
A

Haynes v. Boyd | WestlawNext

Page 6 of 9

the victims were competent to consent and whether the petitioner 'had the ability
to tell that.' " Id.
*5 The post-conviction trial court denied relief and Petitioner appealed. Id. at *1.
In affirming the lower court's decision, the TCCA applied Strickland's standards and
concluded that counsel was not ineffective for failing to present an as-applied
argument based on Lawrence. Id. at *4. The court determined that counsel did not
perform deficiently because he "actually made a constitutional claim" that the rape
law "violated a constitutionally protected action of intellectually disabled persons to
engage in sexual activities under Lawrence v. Texas unless a consent requirement
was read into the statute." Id. at *5.
petitioner, here, does not assert that the TCCA's decision was "contrary to," 28
U.S.C. § 2254(d)(1), clearly established Supreme Court law. Such an argument
would, in any event, be without merit because the appellate court correctly
invoked Strickland's standards. See Williams, 529 U.S. at 406 ("[A] run-of-the-mill
state-court decision applying the correct legal rule from [Supreme Court] cases to
the facts of a prisoner’s case would not fit comfortably within § 2254(d)(l)'s
'contrary to' clause/').
Baynes does insist, however, that the TCCA's factual determination that counsel
presented a challenge to his convictions based on Lawrence is not supported by
the record. He alleges that he "has been unable to locate" in the direct appeal brief
counsel's reliance on that case. (ECF No. 1 at 11.) The argument is misplaced.
Counsel cited to "Garner v. Texas," rather than "Lawrence v. Texas." (See ECF No.
11-8 at 14.) As Respondent correctly points out, "Garner was a co-defendant on
the same case and thus was listed as a second appellant-petitioner in Lawrence."
(ECF No. 23 at 9 n.2 (citing Lawrence, 539 U.S. at 562-63).) Accordingly, the
TCCA's finding that counsel raised an issue under Lawrence is supported by the
record and, thus, is not an unreasonable factual determination.
petitioner also challenges the TCCA's application of Strickland's standards to the
facts of his case. He maintains that the court's conclusion that counsel was not
ineffective for choosing to argue Lawrence in the context of evidence-sufficiency,
ijatherthan through an as-applied argument, was unreasonable. (ECF No. 1 at 1112.) Haynes's argument is unavailing.
To succeed on a claim that appellate counsel was ineffective for failing to present a
certain argument, a petitioner must overcome the presumption that counsel
rendered effective assistance in choosing which issues to press on appeal.
Dufresne v. Palmer, 876 F.3d 248, 257 (6th Cir. 2017) (citing McFarland v. Yukins,
356 F.3d 688, 710 (6th Cir. 2004)). "[OJnly when ignored issues are clearly
stronger than those presented, will the presumption of effective assistance of
[appellate] counsel be overcome." Id. (quoting Fautenberry v. Mitchell, 515 F.3d
614, 642 (6th Cir. 2008)) (brackets in original). "[A] petitioner also 'must
clemonstrate a reasonable probability that, but for his counsel's unreasonable
failure to raise [an] issue on appeal, he would have prevailed.' "Id. (quoting Webb
v. Mitchell, 586 F.3d 383, 399 (6th Cir. 2009)) (internal quotation marks omitted).

https://nextcorrectional.westlaw.com/Document/I0c9d0bd088881 Iea90c4ecc2elf3ae4a/...

12/28/2020

L

Haynes v. Boyd | WestlawN^t

Page 7 of 9

Petitioner, here, does not explain how the as-applied argument he insists counsel
should have made was "clearly stronger" than the argument counsel did make.
Indeed, an as-applied argument would have been problematic. As previously
discussed, the Supreme Court limited its ruling in Lawrence to cases involving
sexual activity between "mutually] consenting]" adults. Lawrence, 539 U.S. at
578. The Court was careful to note that its ruling does not apply to cases
"involving] persons ... who are situated in relationships where consent might not
easily be refused." Id. Haynes attempts to fit his case within Lawrence's scope by
insisting that his victims consented to the sexual intercourse. (ECF No. 1 at 6.) The
record, however, suggests that the victims did not have the mental capacity to
consent and that Petitioner had greater executive function than the victims and
could understand and plan the sexual activity. See Haynes I, 2013 WL 3807992, at
*3 ("Dr. Steinberg ... opined that at the time of the rapes, the victims did not have
the ability to consent to sexual intercourse."); Haynes II, 2016 WL 750233, at *2
(Steinberg "concluded that the petitioner had the executive function to make
decisions that the victims lacked"); (ECF No. 11-3 at 75, 81, 119-23 (Steinberg
opined that Haynes had greater executive function than the victims and could
"plan ... sexual activity").) See e.g., Schroeder v. Tegeis, No. 17-CV-139-BBC,
2017 WL 2126889, at *4 (W.D. Wis. May 16, 2017) (citing Lawrence, 539 U.S. at
578) (petitioner's "as-applied challenge" to state sexual assault statute "would
have been unsuccessful because the jury found that petitioner's girlfriend did not
consent to [his] conduct and the constitutional right of sexual privacy is limited to
consensual conduct") (emphasis in original), appeal den. (7th Cir. Sept. 27, 2017).
*6 Accordingly, Petitioner has not shown that the TCCA’s determination that
counsel was not ineffective regarding a Lawrence argument was an unreasonable
application of Strickland's standards to the facts of his case. Claim 1 is therefore
DENIED.

III. Claim 2
petitioner asserts that the Tennessee rape statute "is unconstitutional as applied in
[his] underlying case." (ECF No. 1 at 12 (altered for irregular capitalization).) He
insists that the statute "infringed upon [his] fundamental right to privacy by
criminalizing consensual sex between mentally handicapped adult persons." {Id.)
Respondent argues that Petitioner procedurally defaulted the claim. (ECF No. 23 at
12-13.) The Court agrees.
Haynes did not challenge the statute as unconstitutional on direct appeal or before
the post-conviction trial court. See Haynes I, 2013 WL 3807992, at *1; (ECF No.
11-8 at 5; ECF No. 11-13 at 10-18, 24-28.) In his post-conviction appeal, he
argued, for the first time, that the statute is unconstitutionally overbroad, and is
also "impermissibly vague" as applied to him, in part because it "can be read so as
to prohibit two mentally defective individuals from engaging in private sexual
conduct" in violation of Lawrence.4 (ECF No. 11-16 at 15); see also Haynes II,
2016 WL 750233, at *5 ("The petitioner asserts that the [statute is] vague[ ] ... as
applied to him" and "is overbroad") The TCCA held that the arguments were
waived because they "were not raised in the petition or addressed in the trial
court." Haynes II, 2016 WL 750233, at *5 (quoting Brown v. State, 928 S.W.2d
453, 457 (Tenn. Crim. App. 1996)).

https://nextcorrectional.westlaw.corn/Document/I0c9d0bd0888811ea90c4ecc2elf3ae4a/...

12/28/2020

Haynes v. Boyd | WestlawNext

Page 8 of 9

In Tennessee, "[a]n issue not presented in a petition for post-conviction relief may
not be raised for the first time on appeal." Beechem v. State, No. W2010-02271CCA-R3PC, 2012 WL 2514904, at *6 (Tenn. Crim. App. July 2, 2012) (unpublished)
(citing Tenn. Code Ann. § 40-30-106(g), perm, appeal denied (Tenn. Oct. 16,
2012); State v. Johnson, 970 S.W.2d 500, 508 (Tenn. Crim. App. 1996) ("Issues
raised for the first time on appeal are considered waived.")). The Sixth Circuit has
found that Tennessee's waiver rule, Tenn. Code Ann. § 40-30-106(g), is an
independent and adequate state procedural rule that will generally bar federal
habeas review. See Cone v. Bell, 243 F.3d 961, 969 (6th Cir. 2001), overruled on
other grounds by Bell v. Cone, 535 U.S. 685 (2002). Claim 2 is therefore
procedurally defaulted.
Petitioner maintains that post-conviction counsel's failure to "fully present[ ]" the
claim before the post-conviction trial court is cause to excuse the default. (ECF No.
1 at 15.) He is mistaken. It is well-established that a post-conviction attorney's
ineffective assistance will not excuse the procedural default of a trial error claim.
See Abdur'Rahman v. Carpenter, 805 F.3d 710, 716 (6th Cir. 2015). Accordingly,
as Claim 2 is not properly before the Court, it is DISMISSED.
*7 For the foregoing reasons, the Petition is DENIED.
APPEAL ISSUES
A § 2254 petitioner may not proceed on appeal unless a district or circuit judge
issues a certificate of appealability ("COA"). 28 U.S.C. § 2253(c)(1); Fed. R. APP. P.
22(b)(1). A COA may issue only if the petitioner has made a substantial showing of
t'he denial of a constitutional right. 28 U.S.C. § 2253(c)(2)~(3). A substantial
showing is made when the petitioner demonstrates that "reasonable jurists could
debate
whether (or, for that matter, agree that) the petition should have been
i
rjesolved in a different manner or that the issues presented were 'adequate to
deserve encouragement to proceed further.'" Miller-El v. Cockrell, 537 U.S. 322,
336 (2003) (quoting Slack v. McDaniel, 529 U.S. 473, 484 (2000)). "If the petition
was denied on procedural grounds, the petitioner must show, 'at least, that jurists
of reason would find it debatable whether the petition states a valid claim of the
denial of a constitutional right and that jurists of reason would find it debatable
whether the district court was correct in its procedural ruling/ " Dufresne v.
palmer, 876 F.3d 248, 252-53 (6th Cir. 2017) (per curiam) (quoting Slack, 529
U.S. at 484).
In this case, reasonable jurists would not debate the correctness of the Court's
decision to deny the Petition. Because any appeal by Petitioner does not deserve
Attention, the Court DENIES a certificate of appealability.
Pursuant to Federal Rule of Appellate Procedure 24(a), a party seeking pauper
status on appeal must first file a motion in the district court, along with a
supporting affidavit. Fed. R. App. P. 24(a). However, Rule 24(a) also provides that
if the district court certifies that an appeal would not be taken in good faith, the
prisoner must file his motion to proceed in forma pauperis in the appellate court.

Id.

https://nextcorrectional.westlaw.com/Document/I0c9d0bd088881 Iea90c4ecc2elf3ae4a/...

12/28/2020

Ha; mes v. Boyd | WestlawNext
•i

Page 9 of 9

In this case, for the same reason it denies a COA, the Court CERTIFIES, pursuant
to Rule 24(a), that any appeal in this matter would not be taken in good faith.
l!eave to appeal in forma pauperis is therefore DENIED.5
IT IS SO ORDERED.

All Citations
Slip Copy, 2020 WL 1977122
it"

Footnotes

1

The Clerk is DIRECTED to substitute Bert C. Boyd for Randy Lee as
Respondent. See Fed. R. Civ. P. 25(d).

i

2

Trial counsel also represented Petitioner on appeal. See Haynes II, 2016
WL 750233, at *2-3.

3

"[0]n review of the sufficiency of the evidence to support a criminal
conviction/' the question before the court is whether, "after viewing the
evidence in the light most favorable to the prosecution, any rational trier
of fact could have found the essential elements of the crime beyond a
reasonable doubt." Jackson v. Virginia, 443 U.S. 307, 318-19 (1979).

4

Respondent asserts that Petitioner did not present, on post-conviction
appeal, the argument on which Claim 2 is premised. (ECF No. 23 at 14.)
As noted, however, Petitioner presented the Lawrence issue in his post­
conviction appellate brief as part of his as-applied vagueness argument
(see ECF No. 11-16 at 15), and the TCCA recognized that he was
challenging the statute's vagueness as applied to him, see Haynes 11,
2016 WL 750233, at *5. Nevertheless, even if Claim 2 could reasonably
be viewed as asserting an argument that was never presented to the
state courts, the claim would, for that reason, still be regarded as
procedurally defaulted.

5

If Petitioner files a notice of appeal, he must also pay the full $505.00
appellate filing fee or file a motion to proceed in forma pauperis and
supporting affidavit in the Sixth Circuit Court of Appeals within thirty
days.

i

End of
I
Document

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

i

WestlawNext. © 2020 Thomson Reuters

THt
Thomson Reuters i&Wrpruvi

https://nextcorrectional.westlaw.com/Document/I0c9d0bdQ888811 ea90c4ecc2e 1 f3ae4a1...

12/28/2020

